No.

 

IN THE
Supreme Court of the United States
CESAR RAUL ACEVES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari

to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE PURSUANT TO RULE 33

Pursuant to Rule 33.2, I hereby certify that this petition is no more than 40
pages and therefore complies with the page limit set out in the Rule. This brief was
prepared in 12-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: February 8, 2021 Byzs
GARY D. ROWE*

Deputy Federal Public Defender

Attorneys for Petitioner
*Counsel of Record
